No. 20-843

lfn ~be ~upreme Qeourt of ~be Wniteb ~tate~
New York State Rifle & Pistol Association, Inc., Robert Nash, Brandon Koch

v.

Keith M. Corlett, in His Official Capacity as Superintendent of
New York State Police,
Richard J. McNally, Jr., in His Official Capacity as Justice of the
New York Supreme Court, Third Judicial
District, and Licensing Officer for Rensselaer County
CERTIFICATE OF COMPLIANCE
As required by the Supreme Court Rule 33.l(h), I certify that the document
contains 6,364 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.l(d).
I declare under the penalty of perjury that the foregoing is true and correct.
Executed on September 21, 2021.

~?~

Gibson Moore Appellate Services, LLC
206 East Cary Street
P.O. Box 1460 (23218)
Richmond, VA 23219
(804) 249-7770 - Telephone
(804) 249-7771- Facsimile

For:
CELIA MEZA

JOHN J. KORZEN

MYRIAM ZRECZNY KASPER

WAKE FOREST UNIVERSITY
SCHOOL OF LAW
APPELLATE ADVOCACY CLINIC

Corporation Counsel of the City of Chicago

Deputy Corporation Counsel
SUZANNE M. LOOSE

Senior Counsel

REBECCA HIRSCH

Assistant Corporation Counsel
2 North LaSalle Street, Suite 580
Chicago, IL 60602
(312) 744-8519
suzanne.loose@cityofchicao.org
Counsel for Amici Curiae

Counsel of Record

Post Office Box 7206
Winston-Salem, NC 27109
(336) 758-5832
korzenjj@wfu.edu

